Department of Homeland Security
   Ofﬁce of Inspector General

            DHS' Counterintelligence Activities 


                        (Summary) 





OIG-10-97                                           July 2010
                                                                       Office ofInspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528



                                                                       Homeland
                                                                       Security
                                         JUL 2 9 2010
                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of DHS' counterintelligence activities. It is
based on interviews with employees and officials of relevant agencies and institutions, direct
observations, and a review of applicable documents.


The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. We trust this report will
result in more effective, efficient, and economical operations. We express our appreciation to all of
those who contributed to the preparation of this report.

                                            /~Q(.~
                                             Richard L. Skinner
                                             Inspector General
OIG
 

Department of Homeland Security
Office of Inspector General

Summary

                The Department of Homeland Security (DHS) is one of the largest and most
                visible federal departments. Throughout DHS, designated personnel have
                access to classified information and systems. Protecting the department
                involves safeguarding personnel, information, operations, programs, and
                technologies from intelligence threats. To counter these threats, the
                department has developed capabilities to detect and neutralize intelligence
                vulnerabilities.

                We assessed DHS’ counterintelligence activities. Specifically, we focused on
                the program’s history, evolution, activities, and coordination and collaboration
                efforts. Executive Order 12333, as amended, defines counterintelligence as
                information gathered and activities conducted to identify, deceive, exploit,
                disrupt, or protect against espionage, other intelligence activities, sabotage, or
                assassinations conducted for or on behalf of foreign powers, organizations, or
                persons, or their agents, or international terrorist organizations or activities.

                The DHS Counterintelligence Program conducts the department’s
                counterintelligence mission activities at the direction of, and under the
                authority of the Secretary. The primary mission of DHS’ Counterintelligence
                Program is to prevent adversaries from penetrating the department to exploit
                sensitive information, operations, programs, personnel, and resources. In
                addition, the United States Coast Guard provides Coast Guard specific
                counterintelligence support to the department. Their primary mission is to
                preserve operational integrity by shielding operations, personnel, systems,
                facilities, and information from intelligence threats. Although the United
                States Coast Guard has been successful in developing its counterintelligence
                program, the DHS Counterintelligence Program has experienced some
                organizational challenges.

                We made multiple recommendations to help the department enhance its
                coordination of counterintelligence activities, define roles and responsibilities,
                and to improve its oversight.




                              DHS’ Counterintelligence Activities
 


                                            Page 1 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
